               U.S. Department of Energy
               Office of Inspector General




Special Report
Management
 ManagementChallenges
              Challengesatatthe
                             the
Department
 DepartmentofofEnergy
                Energy




DOE/IG-0580
 DOE/IG-0626                                 December
                                              November2002
                                                       2003
MANAGEMENT CHALLENGES AT THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS



               Analysis of Management Challenges

               Background ............................................................................….1

               Mission Related Challenges ...................................................... 1

               Internal Control Challenges ....................................................... 6


               Appendices

               1. Watch List .......................................................................... 13

               2. Table Comparing Management Challenges Reported
                  by Various Groups ............................................................. 15

               3. Related Reports Issued in Fiscal Year 2003 ...................... 16
ANALYSIS OF MANAGEMENT CHALLENGES

Background        The Department of Energy (Department) is engaged in work vital to our
                  nation's security and economic growth. Its missions address a wide
                  range of areas including science, energy resources, national nuclear
                  security, and environmental quality. To accomplish these missions, the
                  Department receives annual appropriations of about $21 billion,
                  employing about 15,000 Federal and 100,000 contractor personnel and
                  managing more than $110 billion of assets.

                  As required by the Reports Consolidation Act of 2000, this report
                  documents the Office of Inspector General's judgment as to the most
                  serious management challenges facing the Department. We have
                  categorized the six challenges identified as either mission-related or
                  internal control. Our conclusions are drawn primarily from our audits,
                  inspections and investigations of the Department and its operations, but
                  also consider other sources of data.

Mission Related   Certain management challenges deal with long-standing mission related
Challenges        risks that are inherent to the Department's complex operations. These
                  challenges are likely to persist well into the future, in part, because they
                  involve factors that are outside of the Department's direct control. We
                  concluded that the Department faces three such challenges:
                  Environmental Cleanup, National Security, and Stockpile Stewardship.

                                           Environmental Cleanup

                  The Department's program for cleaning up the environmental
                  contamination caused by nuclear weapons research, production, and
                  testing is the Department's single largest financial liability – estimated
                  to cost about $210 billion over the next several decades. Environmental
                  cleanup activities include many complex technical and regulatory
                  challenges. In fact, some of the Department's disposal facilities are
                  unique in the world. Moreover, the Department operates in a regulatory
                  environment governed by complex Federal statutes, approximately 70
                  compliance agreements with states and other Federal agencies, and over
                  7,000 enforceable milestones. While the Department has made great
                  strides in addressing the inherent risks in this area, it has not
                  consistently met its goals or integrated its programs for site cleanup and
                  waste disposal.

                  In our report on Waste Reduction Plans for the Advanced Mixed Waste
                  Treatment Project at the Idaho National Engineering and
                  Environmental Laboratory (DOE/IG-0611, July 2003), we concluded
                  that the project will only reduce waste volume at Idaho by 6 percent,


Page 1                                        Background/Mission Related Challenges
         instead of the planned 65 percent. As a result, the Department may
         spend $250 million more than expected to dispose of this waste. As
         another example of cleanup goals unmet, in our report on Disposal of
         the Rocky Flats Environmental Technology Site's Low-Level Mixed
         Waste (DOE/IG-0612, July 2003), we noted that, due to regulatory
         difficulties in permitting a waste disposal site to accept waste, the
         Department is at risk of missing closure targets and incurring
         significant cost increases in order to deal with certain types of waste at
         Rocky Flats.

         The Department has also faced difficulties in integrating its cleanup
         efforts. For example, our report on The Department of Energy's Spent
         Nuclear Fuel Canisters and Transportation Casks, (DOE/IG-0608,
         June 2003) found redundancies in the development of canisters and
         transportation casks between Department sites. In another report,
         Treatment of Mixed Incinerable Waste (DOE/IG-0588, March 2003),
         we noted inefficiencies in the treatment and storage of this waste at
         several sites. Specifically, although a Department-owned incinerator
         was used at less than one-third of its capacity, and another treatment
         system was used at just over half capacity, the Department was funding
         a treatment facility owned by a commercial vendor that may duplicate
         the Department's underutilized facilities. Further, our report on
         Disposal of Remote-Handled Transuranic Waste at the Waste Isolation
         Pilot Plant (DOE/IG-0613, July 2003) disclosed significant
         inconsistencies between the waste-generating site plans and the
         Departmental plan for treatment and disposal of remote-handled
         transuranic waste.

         To correct the issues raised in our reports, the Department's Office of
         Environmental Management has initiated a number of specific actions.
         Also, in March 2003, at the Deputy Secretary's request, the Assistant
         Secretary for Environmental Management initiated a number of actions
         intended to help the Department deal more effectively with cleanup
         activities and to accelerate reforms recommended in Environmental
         Management's 2002 "Top to Bottom" review. These actions included:

            • Developing and implementing a new budget structure;
            • Instituting human capital reforms;
            • Modifying the acquisition strategy by using more small, discrete
              cleanup contracts;
            • Organizing a management advisory council to review contracts
              from a corporate perspective, and to find ways to improve
              performance of contractors;



Page 2                                             Mission Related Challenges
           •   Enhancing configuration control over critical program elements,
               including corporate performance metrics, contractor performance
               measures, and life-cycle costs; and,
           •   Pursuing innovative solutions to cleanup through the creation of
               ten integrated project teams.

         The Office of Inspector General will continue to allocate its resources
         to assist the Department in this critically important area.

                                     National Security

         The Department plays a key role in the Nation's national security
         apparatus, including major programs related to the non-proliferation of
         nuclear weapons and a number of programs that are relevant to
         homeland security. Since September 11, 2001, the Department's
         activities in this area have been operating in an increasingly dynamic
         and challenging world. Our reviews have highlighted areas that need
         attention to strengthen the Department's efforts in domestic threat
         response and protection, nonproliferation, site access controls, and
         protective forces.

         The Department plays a critical role in protection of the domestic
         infrastructure. Through our reviews, we have identified areas that need
         enhancement. Our review of National Nuclear Security
         Administration's Ability to Meet the Aircraft Requirements of the Joint
         Technical Operations Team (DOE/IG-0605, June 2003) found that the
         National Nuclear Security Administration (NNSA) was not prepared to
         meet the requirements of the Joint Technical Operations Team, which
         was established to respond to terrorist attacks involving nuclear
         weapons. Also, the Department did not have formal agreements with
         the Department of Defense to detail specific requirements to support
         this critical mission. In another report, which is not publicly releasable
         in its entirety because it contains information that is Official Use Only,
         Actions Taken in Response to Missing Hazardous Waste Containing
         Cyanide (DOE/IG-0592, March 2003), we noted that the Department
         needs to enhance awareness of materials that could be used as weapons
         of mass destruction and to strengthen controls over management and
         disposition of these materials. Further, in our report, Power Marketing
         Administration Infrastructure Protection (OAS-B-03-01, April 2003),
         we concluded that two power administrations did not adequately assess
         vulnerabilities or risks for their most critical assets. As a result, these
         power distribution assets could be more vulnerable to attack, which
         could lead to economic impacts on the power administrations and their
         customers.

Page 3                                             Mission Related Challenges
         Related to international nonproliferation issues, the Office of Inspector
         General issued a report on International Materials Protection, Control
         and Accountability Non-Proliferation Initiative (DOE/IG-0603, June
         2003), in which we concluded that a significant portion of funding was
         expended in the United States, rather than being used directly to reduce
         proliferation risks in the former Soviet Union. In fact, the Department's
         national laboratories spent a combined total of $13.7 million more than
         Congressional targets for domestic expenditures in Fiscal Year (FY)
         2001 and FY 2002. Also, the Department allowed uncommitted funds
         to increase to $133 million by the end of FY 2002. Our report also
         noted that improvements were needed in prioritizing and allocating
         funds, and measuring performance.

         As in previous years, the Office of Inspector General issued several
         reports regarding access controls over Departmental operations. For
         example, our report on The Department's Unclassified Foreign Visits
         and Assignments Program (DOE/IG-0579, December 2002) disclosed
         that the Department had not adequately controlled unclassified visits
         and assignments by foreign nationals. Also, in our report on Personnel
         Security Clearances and Badge Access Controls at Selected Field
         Locations (DOE/IG-0582, January 2003), we identified significant
         discrepancies at Oak Ridge where the Department had either not
         terminated former Federal and contractor employees' clearances or had
         not recovered their badges. Less significant but related problems were
         identified at other sites during this review.

         The Department of Energy and its contractors are also responsible for
         producing, storing, and handling significant quantities of nuclear
         materials, weapons, and other national security related information.
         Through its contractors, the Department employs protective force
         personnel as key elements in the protection of its facilities. During the
         review of Management of the Department's Protective Forces (DOE/
         IG-0602, June 2003), the Office of Inspector General concluded that
         several significant weaknesses existed, including: long delays in
         granting clearance to protective force personnel; increases in
         unscheduled overtime cost; morale and retention problems because of
         mandatory overtime; and, operational vulnerabilities with work
         stoppages. Another review concerning the readiness of the
         Department's protective forces, Inspection of Implementation of
         Corrective Actions Resulting From Force-on-Force Performance Tests
         (DOE/IG-0585, February 2003), determined that the process of
         documenting activities associated with corrective action plan milestones
         at Los Alamos could be improved. Also, we noted areas where internal
         policies and procedures at Pantex could be strengthened in order to
         improve readiness of the Department's protective forces.

Page 4                                            Mission Related Challenges
         Recently, the Department has taken several steps to improve security
         controls and mitigate associated risks. For instance, in March 2003, the
         Department issued its strategic plan for security, outlining its priorities,
         goals, initiatives, and challenges for the next decade. Additionally, as
         part of the Deputy Secretary's effort to address management challenges,
         the Department conducted an assessment of its security posture and
         concluded that three major areas of risk exist: the evolution of new and
         emerging threats; problems with prioritizing and assigning scarce
         resources; and, unclear assignment of accountability, roles and
         responsibilities. Senior Departmental management, including the
         Under Secretary for Energy, Science and Environment, the
         Administrator for NNSA, and the Office of Security have initiated
         actions intended to improve performance in these areas. Additionally,
         the Department has a Security Policy Streamlining Initiative and has
         formulated an Executive Quality Panel to improve the Department's
         policies and procedures over security.

                                   Stockpile Stewardship

         The Department's program for stockpile stewardship is one of the most
         technically complex scientific programs ever undertaken. Specifically,
         the Department is charged with maintaining the safety, reliability, and
         performance of the nation's nuclear weapons stockpile in the absence of
         underground nuclear testing. The Secretary of Energy must annually
         certify to the President that the weapons are safe and reliable and that
         underground testing does not need to be resumed. To accomplish its
         mission, the NNSA is developing a remarkable set of scientific facilities
         and tools to (1) better understand changes that occur in nuclear weapons
         as they age, (2) enhance stockpile surveillance capabilities, and (3)
         extend the life of weapons in the stockpile. In meeting these challenges
         the Department has had difficulty with the efficiency of its operations,
         administrative processes, and the ability to conduct timely studies of
         weapons systems.

         A review of Beryllium Oxide Operations at the Y-12 National Security
         Complex (DOE/IG-0595, April 2003) disclosed that there were
         inefficiencies in Y-12's beryllium oxide operations. For example,
         operations were spread out across the Y-12 site, and equipment and
         facilities were outdated. Additionally, the Department did not
         adequately consider using other materials that would perform the same
         function as beryllium but without the harmful health effects. Another
         report, Management of Beryllium Metal Supply (DOE/IG-0583, January
         2003), noted that only 50 tons of beryllium in the National Defense
         Stockpile is reserved for the Department, yet there is a need for 90 tons
         of beryllium over the next three decades. We made recommendations

Page 5                                              Mission Related Challenges
                   intended to help the Department close this potential gap. In a different
                   case, our report on Reconfiguration of the Kansas City Plant (DOE/IG-
                   0616, August 2003) found that the Stockpile Management
                   Restructuring Initiative will not achieve the goals established in the
                   initiative, and, consequently, will not save as much money as
                   anticipated.

                   Some of NNSA's administrative processes need strengthening as well.
                   In our report on the National Nuclear Security Administration's
                   Planning, Programming, Budgeting and Evaluation Process (DOE/IG-
                   0614, August 2003), we found that while NNSA had made significant
                   progress toward the implementation of its PPBE process, several areas
                   needed to be addressed before the process is fully operational.
                   Specifically, NNSA managers were not always clear on their roles and
                   responsibilities; contractor estimates that form the basis for budget
                   estimates were not validated; and, an independent analysis group to
                   support the resource allocation decision process had not been
                   established.

                   In addition, delays that could put stockpile stewardship program goals
                   at risk were identified in our report on the National Nuclear Security
                   Administration's Nuclear Explosive Safety Study Program (DOE/IG-
                   0581, January 2003), which found that Nuclear Explosive Safety
                   studies were delayed for six of the nine nuclear weapon types. These
                   delays would cause an actual time difference between the
                   comprehensive studies of 11 to 16 years, exceeding the standard of
                   every ten years.

                   To its credit, as part of the Deputy Secretary's effort to mitigate risks
                   associated with management challenges, NNSA management has
                   initiated corrective actions intended to address these concerns.
                   Initiatives are underway to improve management processes over
                   planning and budgeting, information management, acquisitions, and
                   human resources.

Internal Control   Internal control challenges represent issues that, if not addressed, may
Challenges         impede the Department's ability to carry out its program responsibilities
                   and to ensure the integrity of its operations. These challenges relate to
                   the Department's management processes for achieving its mission rather
                   than directly to the mission outcomes themselves. We concluded that
                   the department faces three challenges related to internal control
                   systems: Contract Administration, Project Management, and
                   Information Technology.



Page 6                                                       Mission Related Challenges/
                                                              Internal Control Challenges
                                  Contract Administration

         Most of the Department's operations are carried out through contracts
         that consume about seventy five percent of the Department's $21.3
         billion budget. Contracts and grants are awarded to industrial
         companies, academic institutions, and nonprofit organizations that
         operate a broad range of scientific, industrial, and production facilities.
         The Department has traditionally faced challenges with contract
         administration, and the Office of Inspector General continues to
         consider it a management challenge. The National Aeronautics and
         Space Administration (NASA) has recently been criticized for its
         "hands-off" approach to contracting in conjunction with space shuttle
         operations. For example, in January 2003, the General Accounting
         Office issued a report that cited NASA's lack of effective contract
         oversight activities. Like NASA, contracting out is a key element of
         the Department of Energy's management culture. As a consequence,
         Federal managers need to avoid becoming too insulated from program
         performance. Clearly, the issues discussed in this management
         challenge transcend the functional role of procurement. Other
         administrative areas such as program and financial management
         influence the effectiveness of the Department's contract administration.
         Our reviews identified the need for improvement in the oversight of the
         following areas: contract cost, laboratory and community development
         activities, and grants to local governments.

         Inadequate oversight of costs of contracts has been a long-standing
         management issue for the Department. In our report on The Advanced
         Mixed Waste Treatment Facility Contract at the Idaho National
         Engineering and Environmental Laboratory (DOE/IG-0622, September
         2003), we concluded that the Department is paying for equipment and
         services that are no longer being contemplated in the project. The
         report identified an opportunity for the Department to reduce the
         contract by more than $90 million. Additionally, Office of Inspector
         General reviews have disclosed instances where costs were incurred
         and paid by the Department that we consider to be questionable. For
         example, in our report on the University of California's Costs Claimed
         and Related Internal Controls for Operation of Los Alamos National
         Laboratory (DOE/IG-0596, April 2003), we identified potentially
         unallowable costs of about $14.6 million that were charged to the
         contract for "working" meals, travel costs in excess of contract limits,
         and for an internal audit function that did not meet Departmental
         requirements. Further, in our special inquiry report on Operations at
         Los Alamos National Laboratory (DOE/IG-0584, January 2003), we
         described actions taken by Laboratory officials that weakened or

Page 7                                              Internal Control Challenges
         overrode property and procurement management controls. In addition,
         this report identified practices by management that may have
         discouraged employees from raising concerns to appropriate authorities.
         Contractor employees should feel free to disclose concerns about
         contract operations to appropriate parties without fear of retaliation.

         The Department allows contractors to engage in certain business
         development activities to facilitate the prospect of acquiring new
         sources of revenue for laboratories. Work conducted by the Office of
         Inspector General indicates that the Department needs to improve its
         administration of these activities. In the report on Idaho National
         Engineering and Environmental Laboratory's Strategic Initiative Fund,
         (DOE/IG-0601, May 2003), we noted that the Department's oversight of
         a mission development fund at Idaho was insufficient. Specifically, we
         identified instances where the fund may have been used to supplement
         other restricted funds and to pay for activities that could have been
         funded directly.

         Additionally, we performed a review dealing with the Department's
         involvement with local economic development groups. Our report on
         Utility System Leases at the East Tennessee Technology Park (DOE/IG-
         0609, June 2003) disclosed that the Department did not obtain
         competitive bids for management of the utility systems and
         infrastructure. Also, we questioned $6.9 million in costs. Similarly, in
         Transfer of Excess Personal Property from the Nevada Test Site to the
         Community Reuse Organization (DOE/IG-0589, March 2003), our
         report disclosed that Nevada's property transfer practices to community
         reuse organizations did not strike an appropriate balance between the
         effort to assist community development and the need to ensure that
         taxpayers received reasonable consideration for property transferred.
         For example, a drill rig potentially worth $3.9 million was sold to the
         community re-use organization for $50,000.

         In addition, under terms of the Nuclear Waste Policy Act, the
         Department provides funds to the State of Nevada and several local
         governments to oversee the Department's Yucca Mountain Project. Our
         report, Oversight Funds Provided to Local Governments in the State of
         Nevada (DOE/IG-0600, May 2003), disclosed that three counties used
         oversight funds for activities that were prohibited by the Nuclear Waste
         Policy Act, such as hiring a lobbyist and sponsoring rallies to protest
         the Yucca project. In a similar review, Inspection of Savannah River
         Operations Office Management of Emergency Response and Law
         Enforcement-Related Grants (DOE/IG-0604, June 2003), we concluded
         that the Department was not adequately managing grants to Georgia
         and South Carolina and did not have documentation to support whether
         or not the grant recipients were on schedule and meeting milestones.
Page 8                                            Internal Control Challenges
         The Department's Chief Financial Officer, at the request of the Deputy
         Secretary, has developed a corrective action plan to address five major
         areas of contract administration in which improvement is desired:
         selection of contract type; increasing competition; use of effective
         performance objectives and measures in contracts; effective
         management of Departmental initiatives; and, inadequate human
         resources to perform contract oversight. The Chief Financial Officer
         has identified specific actions for each of these major areas that are
         intended to improve the Department's performance in contract
         administration. Notably, the Department is taking steps to compete the
         Los Alamos National Laboratory contract for the first time in 60 years.

                                   Project Management

         In carrying out its various missions, the Department is engaged in
         numerous multi-million dollar – and a few multi-billion dollar –
         projects. Because of the scientific and technologically complex nature
         of much of the Department's work, many of the projects are unique in
         the world. For many years, however, the Department has been
         criticized for weaknesses in its project management. In an effort to
         delineate and address those weaknesses, the Department has, since
         1998, engaged the National Research Council (an organization of the
         National Academies of Science) to make recommendations to improve
         project management. The Council published a series of reports, which
         concluded that the Department lacks sufficient control over its projects,
         ultimately resulting in projects with cost and schedule over-runs. In its
         most recent report, Progress in Improving Project Management at
         DOE – 2002 Assessment, the Council expressed concern over the
         Department's consistency and continuity of applying project
         management principles, risk management, and contingency. The
         Council cited improvements in the Department's organizational
         structure with a central project management office, improved policies
         and procedures over project management, improved project
         management tools, and improvement over human resource issues
         pertaining to project management. Through these efforts, the
         Department has improved management of traditional construction
         projects. In our judgment, these same concepts should also be applied
         to the Department's operating projects.

         In our work related to environmental cleanup projects, the Office of
         Inspector General reported on instances in which the Department had
         not appropriately applied project management principles, including
         thoroughly analyzing the cost-effectiveness of proposed new facilities.
         For example, our report on Planned Characterization Capability at the

Page 9                                             Internal Control Challenges
          Waste Isolation Pilot Plant (DOE/IG-0577, December 2002), disclosed
          that a proposed central characterization facility for transuranic waste at
          the Waste Isolation Pilot Plant would not benefit generator sites and
          may not be needed. Also, our report on the Idaho National Engineering
          and Environmental Laboratory's Remote Treatment Facility (DOE/IG-
          0573, November 2002) found that the conceptual plan for the planned
          facility did not provide the capability to treat all remote-handled solid
          waste at the Idaho site. Further, in a report on the Idaho Settlement
          Agreement Activities (DOE/IG-0571, October 2002), we noted that two
          recently completed cleanup projects overran costs by a combined $168
          million. In this report, we made recommendations to improve project
          controls over operating projects.

          In the stockpile stewardship area, our review of the Dual Axis
          Radiographic Hydrodynamic Test Facility (DOE/ IG-0599, May 2003)
          disclosed that this facility would not be operational until June 2004, 15
          months behind schedule, even after scope changes that reduced or
          eliminated work elements. Additionally, in our report on
          Refurbishment of the W80—Weapon Type (DOE/IG-0590, March
          2003), we found it to be unlikely that NNSA's W80 refurbishment
          projects will meet scope, schedule, and cost milestones. Lawrence
          Livermore and Sandia National Laboratories cancelled or delayed
          testing without notifying NNSA or updating the project plan. We made
          recommendations to improve the accountability and oversight over this
          project.

          Also, in our review of Plutonium-238 Production (DOE/IG-0607, June
          2003), we concluded that there were risks that the Department would
          not achieve its plutonium 238 production objectives. We recommended
          the Department implement project management controls over the
          project, better define long-term needs, and designate the project as a
          high priority.

          To address project management issues identified by the National
          Research Council, the Office of Inspector General, and other reviewers,
          the Department's leadership has initiated a number of corrective actions,
          particularly for capital asset construction projects. Examples include
          using External Independent Reviews to ensure quality planning during
          early stages of the projects; regular status reports with senior
          Department management; conducting executive level management
          reviews; and, implementing a new career development program for
          project managers. Additionally, some Departmental organizations,
          such as the Office of Environmental Management, are reforming the
          way its projects are organized and administered in order to improve
          accountability and effectiveness.

Page 10                                             Internal Control Challenges
                                  Information Technology

          The Department spends more than $2 billion annually on information
          technology resources. In the past year, a number of Office of Inspector
          General reports have highlighted internal control weaknesses that
          impact cyber security and the improvement of information technology
          systems.

          Our report on Remote Access to Unclassified Information Systems
          (DOE/IG-0568, September 2002) disclosed that the majority of offices
          reviewed had not adequately protected information systems from
          unauthorized remote access. This placed them at risk for tampering,
          fraud, and other criminal acts. In our report Security Over Wireless
          Networking Technologies (DOE/IG-0617, August 2003), we reported
          that four of the six organizations we reviewed had deployed wireless
          networks without assessing the risks associated with their use. This
          placed the Department's information systems at risk of attack from
          internal and external sources and could ultimately result in the
          compromise of critical systems and information.

          Also, in our evaluation report on The Department's Unclassified Cyber
          Security Program 2003 (DOE/IG-0620, September 2003), we noted a
          number of improvements in the Department's unclassified cyber
          security program since our last review; however, we observed that
          problems continue to exist in several critical areas. In an interim report
          on Inspection of Internal Controls Over Personal Computers at Los
          Alamos National Laboratory (DOE/IG-0597, April 2003), we found
          that the controls over classified and unclassified laptop computers were
          inadequate. Los Alamos could not account for its single-user classified
          laptops. Further, computers that could not be located were simply
          written off without sufficient review of the circumstances, and thefts
          were not always reported to the Laboratory's Office of Security
          Inquiries.

          To its credit, the Department's Office of Chief Information Officer is
          developing corrective actions to mitigate cyber-security risks and to
          improve relevant controls. For instance, the Department is finalizing
          detailed cyber security policy and guidance, and in June 2003 provided
          guidance for cyber-security performance measurements. Additionally,
          the Department recently issued DOE Order 205.1, Department of
          Energy Cyber Management Program, which requires that continuity of
          operations, configuration management, and incident reporting
          procedures be developed and maintained in Program Cyber Security
          Plans and Cyber Security Program Plans. Additionally, the Office of

Page 11                                             Internal Control Challenges
          the Chief Information Officer has addressed inadequate reporting in its
          draft Incident Prevention, Warning, and Response manual.
          Specifically, the draft includes guidance on reporting to law
          enforcement and the Office of Counterintelligence. Moreover, the draft
          manual addresses the lack of reporting by requiring monthly
          verification when no reportable incidents occur.

          For some time, the Department has experienced problems in fully
          implementing the requirements of the Clinger-Cohen Act of 1996.
          These requirements established the Department's Chief Information
          Officer, who was to have broad authority to use information technology
          to improve performance and reduce costs. The Department has
          identified significant barriers to achieving Clinger-Cohen's objectives,
          including: the decentralized approach to information technology
          management in the Department; the Chief Information Officer's limited
          role in the budgeting process for Departmental programs; and, the lack
          of a baseline of information technology to guide the acquisition and
          management of information technology resources in the Department.

          In our report on Information System Development Practices at the
          Bonneville and Western Area Power Administrations (DOE/IG-0586,
          February 2003), the Office of Inspector General found that system
          development was not always consistent with Federal requirements and
          guidance. The absence of key system development activities led to
          schedule slippage and a $9 million write-off. Also, Bonneville faced
          development delays of more than two years and modifications costing
          more than $600,000. Further, three different regional offices had
          separate billing systems for the same core purpose. In another report,
          Business Management Information System (DOE/IG-0572, November
          2002), we concluded that the system under development was unlikely to
          satisfy some key Federal requirements and was not aligned with the
          Department's corporate information technology architecture.
          Specifically, program elements were developing separate systems that
          were not capable of full integration with other business systems; did not
          link performance and financial data; and, did not replace inefficient
          program and site-level financial management systems.

          To better delineate its policies and procedures on information
          technology issues, the Department is preparing a DOE Order on
          information technology management. Also, the Chief Information
          Officer is developing an acquisition framework and an information
          technology investment portfolio system to improve decision making for
          new information technology acquisitions, and to improve information
          technology capital planning. Further, the Department plans to complete
          an information technology enterprise architecture-based information
          technology inventory.
Page 12                                            Internal Control Challenges
Appendix 1


                                              WATCH LIST


The Office of Inspector General's "watch list" consists of management issues that do not, in our judgment,
meet the threshold of major management challenges yet warrant continued attention by senior Department
managers. Watch list issues may include management challenges identified in previous years for which the
Department has implemented corrective actions or has achieved positive outcomes. The watch list may also
include emerging issues that may require Department action. This year's watch list addresses three areas:
Energy Supply; Worker and Community Safety; and, Performance Management.

Energy Supply

One of the Department's strategic goals is to promote the development and deployment of energy systems
that will provide the Nation with clean, efficient, economical and reliable energy. This strategic goal
recognizes the critical role energy contributes to the Nation's economy and to our standard of living. In
fact, one of the primary reasons the Department of Energy was created in 1978 was the need for a
coordinated national response to the economic and social turbulence caused by energy supply disruptions
that occurred in the 1970s, such as the Oil Producing and Exporting Countries oil embargo of 1973 and
1974. Disruptions in energy supply can cause dramatic price fluctuations that reverberate throughout the
Nation's economy.

Nevertheless, for the past several decades, the United States has been increasingly dependent on energy
supplied by foreign sources, especially petroleum imports from the Persian Gulf region. From 1981 to
2001, the percent of United States petroleum needs met from foreign sources increased from 34 percent to
54 percent and is likely to continue to increase further in the future. Acknowledging the trend toward
increasing dependence on foreign energy sources, the President's FY 2004 budget proposal for the
Department of Energy identifies "reduce dependence on energy imports" as one of the Department's six
primary priorities.

It is important to note that risks of disruptions in energy supply are not restricted to foreign oil imports.
Other recent events indicate that challenges exist in many areas of energy supply. For example, in August
2003, more than 20 million people in the northeast were without electricity during the largest blackout in
U.S. history. Further, in the summer of 2001, large areas of the State of California were subjected to rolling
blackouts. Also, acute shortages of natural gas resulted in dramatic price increases in 2003, and spikes in
the price of gasoline have occurred for a myriad of reasons including domestic pipeline issues. Aging
nuclear facilities also continue to play a significant role in domestic power generation. Accordingly, it
appears that the risks of energy supply disruptions will be on the Department's agenda for the foreseeable
future. Given our reliance on energy, this will be one of the most important policy decisions facing the
nation. As the Federal agency responsible for energy policy at the national level, the Department will have
a critical role in addressing this challenge.




Page 13                                                                                          Watch List
Appendix 1 (continued)

Worker and Community Safety

The Department manages large amounts of dangerous materials and operates large-scale industrial facilities
that represent safety risks to workers and local communities. Safety incidents that affect workers and the
community have the potential to destabilize, delay, and disrupt the Department's critical activities, and have
intangible costs such as a negative public perception of the Department. Accordingly, it is imperative that
the Department continue to place a high priority on worker and community safety. In prior years, we
reported worker and community safety as a major management challenge.

This year, due to progress made and actions currently underway, we moved this area to our watch list.
Specifically, the Department has implemented an improvement action plan that details 26 commitments.
For example, the Department has improved definition and assignment of organizational roles,
responsibilities, and authority. Also, the Department has implemented processes to improve safety analyses
and design codes.

The Office of Inspector General continues to evaluate the Department's safety programs and activities and
to make recommendations to assist management in improving its operations. For example, our report on
Inspection of Explosives Safety at Selected Department of Energy Sites (DOE/IG-0578, December 2002)
noted that improvements could be made in the areas of explosives safety, fire, and lightning safety.

Performance Management

In previous years, we have reported that performance management was among the most serious challenges
the Department faced. Specifically, we noted that:

   •   Performance measures were frequently not clear or quantifiable;
   •   Some major Departmental activities lacked performance measures; and,
   •   Reported performance results were not always accurate and valid.

We have concluded, however, that in the past year, the Department has made considerable progress in
addressing these concerns. The Department's Office of Chief Financial Officer led the Department's efforts
to improve performance management. These efforts, coupled with the Deputy Secretary's initiatives to
establish program office "ownership" of Department challenge areas and to develop corrective action plans
for each are positive steps. In our judgment, senior Department leadership has acted forcefully to establish
meaningful performance management improvements. Actions implemented to date include: issuing new
policy on performance measures to better define terminology and criteria; rolling out a new performance
measurement software system that forces performance data to be quantifiable; conducting new training on
performance measurement; and, implementing an Earned Value Management System on projects with
funds of $5 million or more. Nevertheless, many of the improvements in this area are new and require the
continued diligent attention of senior Department management to assure accurate and valid results are
reported and documented against clear and meaningful measures.




Page 14                                                                                          Watch List
Appendix 2

                       TABLE COMPARING MANAGEMENT CHALLENGES
                              REPORTED BY VARIOUS GROUPS



                        IG                            GAO1                            DOE2
          Contract Administration          Contract Management             Program Oversight of
                                                                           Contractors
          Environmental Cleanup            Cleanup of Radioactive &        Environmental Cleanup
                                           Hazardous Waste
                                                                           Nuclear Waste Disposal
          Information Technology                                           Information Technology
          Management                                                       Management
          National Security                Security Threats and            Security
                                           Problems
                                                                           Performance Management

          Stockpile Stewardship            Nuclear Weapons Stockpile       Stockpile Stewardship and
                                                                           Testing
                                                                           Safety and Health

                                                                           Human Capital Management

                                           Revitalize Infrastructure       Facilities and Infrastructure
                                                                           Management
          Project Management                                               Project Management

                                           Leadership in Meeting
                                           Nation's Energy Needs




1
 According to Major Management Challenges and Program Risks, Department of Energy (GAO-03-100, January
 2003)
2
 DOE’s self-identified “Significant Issues” according to U.S. Department of Energy Performance and Accountability
 Report, Fiscal Year 2002 (January 2003)
Page 15                                                       Table Comparing Management Challenges
                                                                          Reported by Various Groups
Appendix 3
                       RELATED REPORTS ISSUED IN FISCAL YEAR 2003


 Environmental Cleanup

    •     Audit Report on Treatment of Mixed Incinerable Waste (DOE/IG-0588, March 3, 2003)

    •     Audit Report on Disposal of Remote-Handled Transuranic Waste at the Waste Isolation Pilot
          Plant (DOE/IG-0613, July 18, 2003)

    •     Audit Report on Disposal of the Rocky Flats Environmental Technology Site's Low-Level Mixed
          Waste (DOE/IG-0612, July 8, 2003)

    •     Audit Report on Waste Reduction Plans for the Advanced Mixed Waste Treatment Project at
          the Idaho National Engineering and Environmental Laboratory (DOE/IG-0611, July 7, 2003)

    •     Audit Report on The Department of Energy's Spent Nuclear Fuel Canisters and Transportation
          Casks (DOE/IG-0608, June 20, 2003)

 National Security

    •     Audit Report on Personnel Security Clearances and Badge Access Controls at Selected Field
          Locations (DOE/IG-0582, January 24, 2003)

    •     Inspection Report on Implementation of Corrective Actions Resulting From Force-on-Force
          Performance Tests (DOE/IG-0585, February 12, 2003)

    •     Inspection Report on The Security Afforded Selected Tritium Reservoir Shipments (U) (DOE/
          IG-0619, September 16, 2003) Classified

    •     Inspection Report on National Nuclear Security Administration's Ability to Meet the Aircraft
          Requirements of the Joint Technical Operations Team (DOE/IG-0605, June 5, 2003)

    •     Audit Report on International Materials Protection, Control and Accountability
          Nonproliferation Initiative (DOE/IG-0603, June 4, 2003)

    •     Audit Report on Management of the Department's Protective Forces (DOE/IG-0602, June 3,
          2003)

    •     Audit Report on Power Marketing Administration Infrastructure Protection (OAS-B-03-01,
          April 28, 2003)

    •     Inspection Report on Actions Taken in Response to Missing Hazardous Waste Containing
          Cyanide (DOE/IG-0592 March 21, 2003) Official Use Only

Page 16                                                    Related Reports Issued In Fiscal Year 2003
Appendix 3 (continued)

    •     Audit Report on The Department's Unclassified Foreign Visits and Assignments Program
          (DOE/IG-0579, December 23, 2002)

 Stockpile Stewardship

    •     Audit Report on National Nuclear Security Administration's Nuclear Explosive Safety Study
          Program (DOE/IG-0581, January 2, 2003)

    •     Audit Report on Management of Beryllium Metal Supply (DOE/IG-0583, January 27, 2003)

    •     Audit Report on Beryllium Oxide Operations at the Y-12 National Security Complex (DOE/IG-
          0595, April 16, 2003)

    •     Audit Report on Savannah River Site's Waste Solidification Building (DOE/IG-0618,
          September 4, 2003)

    •     Audit Report on Reconfiguration of the Kansas City Plant (DOE/IG-0616, August 13, 2003)

    •     Audit Report on National Nuclear Security Administration's Planning, Programming Budget,
          and Evaluation Process (DOE/IG-0614, August 5, 2003)

 Contract Administration

    •     Special Inquiry on Operations at Los Alamos National Laboratory (DOE/IG-0584, January 28,
          2003)

    •     Audit Report on University of California's Costs Claimed and Related Internal Controls for
          Operation of Los Alamos National Laboratory (DOE/IG-0596, April 16, 2003)

    •     Audit Report on Transfer of Excess Personal Property from the Nevada Test Site to the
          Community Reuse Organization (DOE/IG-0589, March 11, 2003)

    •     Audit Report on the Oversight Funds Provided to Local Governments in the State of Nevada
          (DOE/IG-0600, May 23, 2003)

    •     Audit Report on Idaho National Engineering and Environmental Laboratory's Strategic
          Initiative Fund (DOE/IG-0601, May 27, 2003)

    •     Inspection Report on Inspection of Savannah River Operations Office Management of
          Emergency Response and Law Enforcement-Related Grants (DOE/IG-0604, June 2, 2003)

    •     Audit Report on Utility System Leases at the East Tennessee Technology Park (DOE/IG-0609,
          June 25, 2003)

Page 17                                                   Related Reports Issued In Fiscal Year 2003
Appendix 3 (continued)

 Project Management

    •     Audit Report on Idaho Settlement Agreement Activities (DOE/IG-0571, October 9, 2002)

    •     Audit Report on Remote Treatment Facility (DOE/IG-0573, November 5, 2002)

    •     Audit Report on Planned Characterization Capability At The Waste Isolation Pilot Plant
          (DOE/IG-0577, December 18, 2002)

    •     Audit Report on Refurbishment of the W80 -- Weapon Type (DOE/IG-0590, March 13, 2003)

    •     Audit Report on the Status of the National Ignition Facility Project (DOE/IG-0598, April 28,
          2003)

    •     Audit Report on the Dual Axis Radiographic Hydrodynamic Test Facility (DOE/IG-0599
          May 22, 2003)

    •     Audit Report on Plutonium-238 Production (DOE/IG-0607, June 19, 2003)

 Information Technology

    •     Audit Report on Business Management Information System (DOE/IG-0572, November 4, 2002)

    •     Audit Report on Information System Development Practices at the Bonneville and Western
          Area Power Administrations (DOE/IG-0586, February 21, 2003)

    •     Interim Inspection Report on Inspection of Internal Controls Over Personal Computers at Los
          Alamos National Laboratory (DOE/IG-0597, April 24, 2003)

    •     Audit Report on Security Over Wireless Networking Technologies (DOE/IG-0617, August 25,
          2003)

    •     Evaluation Report on The Department's Unclassified Cyber Security Program 2003 (DOE/IG-
          0620, September 16, 2003)

 Worker and Community Safety

    •     Inspection Report on Inspection of Explosives Safety at Selected Department of Energy Sites
          (DOE/IG-0578, December 19, 2002)

    •     Inspection Report on Oversight of Shock Sensitive Chemicals at the Department's Ames
          Laboratory (DOE/IG-0615, August 11, 2003)



Page 18                                                   Related Reports Issued In Fiscal Year 2003
                                                                              IG Report No.: DOE/IG-0626

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
